No. 20-107
IN THE

Supreme Court of the United States
CEDAR POINT NURSERY AND FOWLER PACKING COMPANY, INC.,

v.

Petitioners,

VICTORIA HASSID, IN HER OFFICIAL CAPACITY AS CHAIR OF THE
AGRICULTURAL LABOR RELATIONS BOARD, ET AL.,

Respondents.
WORD COUNT CERTIFICATION

As required by Supreme Court Rule 33.1(h), I certify that the
document contains 4,005 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on January 6, 2021.

Rita L. Hemenway
Rita L. Hemenway
NOTARIZED BY:

George D. Bateman
George D. Bateman
My Commission Expires: May 30, 2025

